        OFFICE OF INSPECTOR GENERAL




                                  Catalyst for Improving the Environment


Audit Report


        Utah Department of Environmental Quality
        Water Quality State Revolving Fund
        Fiscal Year 2004 Financial Statements


        Report No. 2005-1-00144

        August 8, 2005
Abbreviations

CFR             Code of Federal Regulations
DEQ             Utah Department of Environmental Quality
EPA             United States Environmental Protection Agency
GAAP            Generally Accepted Accounting Principles
SRF             State Revolving Fund
                         U.S. Environmental Protection Agency                                                    2005-1-00144

                                                                                                                August 8, 2005

                         Office of Inspector General


                         At a Glance

                                                                             Catalyst for Improving the Environment

Why We Did This Review                Utah Department of Environmental Quality Water Quality
                                      State Revolving Fund Fiscal Year 2004 Financial Statements
We performed this audit to
determine:
                                       What We Found
• If Utah Water Quality State         We rendered an unqualified opinion on the financial statements of Utah’s Water Quality
  Revolving Fund’s financial          State Revolving Fund (SRF) for the fiscal year ended June 30, 2004.
  statements were fairly presented
  in all material respects;           We qualified our opinion on compliance with applicable laws and regulations because:
• To what extent that Utah Water
  Quality State Revolving Fund’s      •	 The SRF entered into loans with 30-year repayment terms. The Clean Water Act
  internal controls over financial       requires loans to be repaid within 20 years.
  reporting could be relied upon;     •	 Utah violated Section 603(d) of the Clean Water Act by depositing hardship
  and,                                   assessments of $3,334,560 into the SRF and transferring hardship assessments of
• Whether the Utah Water Quality         $3,128,088 to the Hardship Fund.
  State Revolving Fund complied       •	 The Department of Environmental Quality (DEQ) disbursed $479,961from the SRF
  with applicable laws and               that was considered ineligible.
  regulations.                        •	 The SRF needs to fully meet the Single Audit responsibilities for pass-through entities
                                         and ensure that loan recipients met the Single Audit requirements and findings are
Background                               adequately addressed.
The requirement for audited           We noted weaknesses in internal controls. DEQ internal controls failed to prevent the
financial statements was enacted to   SRF disbursement, recording and reporting of $479,961 in ineligible assistance.
help ensure that State Revolving
Fund programs had management
                                       What We Recommend
practices, systems and controls in
place to provide reliable
                                      We recommend that EPA:
information for managing the
federally funded program.
                                      •	 Require the DEQ to take the necessary steps to ensure proper review and approval of
                                         transactions, including the proper use of accounting codes, to further ensure SRF
                                         funds are used only when intended and for authorized purposes.
                                      •	 Require Utah to modify the three loans with extended financing terms to comply with
                                         the Clean Water Act.
                                      •	 Prohibit Utah from making loans with terms extending beyond 20 years.
                                      •	 Cease allowing States to violate the Clean Water Act based on an Office of Water
                                         draft policy.
For further information,              •	 Require Utah to transfer the remaining $206,472 in hardship assessments in the SRF
contact our Office of                    as well as any subsequent receipts, to the Hardship fund.
Congressional and Public Liaison      •	 Require Utah to make appropriate adjustments to accounts and procedures to deposit
at (202) 566-2391.                       and account for the hardship assessment fees outside the SRF.
                                      •	 Require Utah to implement a Single Audit Review and corrective action policy
To view the full report, click on        consistent with Federal Regulations.
the following link:                   •	 Require the DEQ to take steps to ensure that established review and approval
                                         procedures are understood and followed so that assistance is provided, recorded and
www.epa.gov/oig/reports/2005/            reported by the appropriate program. Add procedures to ensure that all assistance
20050808-2005-1-00144.pdf                recorded in the SRF are supported by documentation.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                        WASHINGTON, D.C.

                                                                                   OFFICE OF
                                                                              INSPECTOR GENERAL


                                              August 8, 2005

Memorandum

Subject:	      Auditor’s Report for the Utah Department of Environmental Equality
               Water Quality State Revolving Fund Program as of June 30, 2004
               Audit Report No. 2005-1-00144

From:	         William M. Dayton
               National SRF Audit Manager

To:	           Robbie Roberts
               Regional Administrator
               EPA, Region 8
               Denver, CO

Attached is a copy of the subject audit we sent to the State of Utah. The audit contains reports
on the financial statements, internal controls, and compliance requirements applicable to the
Clean Water State Revolving Fund (SRF) program in Utah for the year ended June 30, 2004.

We have issued an unqualified opinion on the financial statements and a qualified opinion on the
compliance requirements, as discussed in our report on compliance. In our report on internal
controls, we noted an issue involving the internal control structure and its operations that we
considered to be a material weaknesses.

In accordance with EPA directive 2750, the Action Official is required to take action on the
findings and recommendations in this report within 150 days.

The OIG has no objection to the release of this report to any member of the public upon request.
The report contains no confidential business or proprietary information.

If you have any questions or concerns regarding this matter, please feel free to contact me at
(916) 498-6590 or Mr. Paul Felz at (303) 312-6270.

Attachment
                                      Table of Contents

At a Glance


Independent Auditor’s Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            1

          Statement of Net Assets . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       2

          Statement of Revenues, Expenses, and Changes in Net Assets . . . . . . . . . . . . . . . . .                                3

          Statement of Cash Flows . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         4

          Notes to the Financial Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             6


Independent Auditor’s Report on Internal Control Structure Based on an

Audit of the Financial Statements Performed in Accordance with 

Government Auditing Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 13 


          Findings, Recommendations and Utah’s Response . . . . . . . . . . . . . . . . . . . . . . . . .                           15 


Independent Auditor’s Report on Compliance with Requirements

Applicable to the Utah Water Quality State Revolving Fund Program

in Accordance with Government Auditing Standards . . . . . . . . . . . . . . . . . . . . . . . . . .                                17 


          Findings, Recommendations and Utah’s Response . . . . . . . . . . . . . . . . . . . . . . . . .                           18 


Report Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 

                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C.

                                                                                    OFFICE OF
                                                                               INSPECTOR GENERAL



                                 Independent Auditor’s Report

We have audited the accompanying statement of net assets of the Utah Department of
Environmental Quality’s (DEQ) State Revolving Fund (SRF) program as of June 30, 2004, and
related statements of revenues, expenses, and changes in net assets, and cash flows for the year
then ended. These financial statements are the responsibility of the SRF’s management. Our
responsibility is to express an opinion on these financial statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and Government Auditing Standards issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures in the
financial statements. An audit also includes assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audit provides a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of the SRF as of June 30, 2004, and the results of its operation and its cash
flows for the year then ended in conformity with generally accepted accounting principles in the
United States of America.

As discussed in Note 1, the financial statements referred to above are intended to present the
financial position and results of operations and cash flows of Utah’s DEQ Water Quality SRF
program. They do not purport to, and do not, present fairly the financial position as of June 30,
2004 or the results of operations and cash flows for the year then ended for the State of Utah or
the Utah DEQ in conformity with accounting principles generally accepted in the United States
of America.

In accordance with Government Auditing Standards, we have also issued a report dated February
4, 2005, on our consideration of the SRF’s internal control structure and a report dated February
4, 2005, on the SRF’s compliance with laws and regulations.


Office of Inspector General
February 4, 2005
                            Utah Department of Environmental Quality
                                      State Revolving Fund
                                     Statement of Net Assets
                                          June 30, 2004


                                               Loan                   Hardship
                                               Fund                    Fund           Total
Assets:

Cash and cash equivalents                  $ 39,443,248            $ 6,163,383    $ 45,606,631

Current receivables:
  Loan interest                                  214,112                               214,112
  Hardship fees                                                         740,440        740,440
  Project administrative fees                     93,450                                93,450
  Due from other funds                           479,961                206,472        686,433
  Due from EPA                                     7,698                                 7,698
  Penalties                                        8,965                                 8,965
  Current portion of loans receivable          7,783,595                             7,783,595
Total current receivables                      8,587,781                946,912      9,534,693

Loans receivable - long term                 107,959,492                           107,959,492

Total assets                               $ 155,990,521           $ 7,110,295    $ 163,100,816

Liabilities and Net Assets:

Current liabilities:
  Due to other funds                             307,619                               307,619
Total current liabilities                        307,619                               307,619

Total liabilities                                307,619                               307,619

Net Assets:

Restricted net assets                        155,682,902              7,110,295    162,793,197

Total net assets                             155,682,902              7,110,295    162,793,197

Total liabilities and net assets          $ 155,990,521            $ 7,110,295    $ 163,100,816




                            See accompanying notes to the financial statements.
                                                    2
                        Utah Department of Environmental Quality

                                   State Revolving Fund

                 Statement of Revenues, Expenses and Changes in Net Assets

                          For the Fiscal Year Ended June 30, 2004



                                             Loan                 Hardship
                                             Fund                   Fund               Total
Revenues:
  Loan interest                          $    629,561                           $       629,561
  Project administration fees                  67,730                                    67,730
  Hardship assessments                                          $ 1,599,546           1,599,546
  Other fees                                    4,161                                     4,161
  EPA grant administration                    122,691                                   122,691
  Total revenues                              824,143              1,599,546          2,423,689

Expenses:
  Personal Services                           156,393                                  156,393
  Travel                                        2,478                                    2,478
  Data Processing                               1,120                                    1,120
  Other                                        30,430                                   30,430
    Total expenses                            190,421                                  190,421

Operating income                              633,722              1,599,546          2,233,268

Investment interest                            580,441                 75,621           656,062
Capital contributions                        2,099,363                                2,099,363

  Change in net assets                       3,313,526             1,675,167          4,988,693

Total net assets, beginning of year       152,369,376              5,435,128        157,804,504

Total net assets, end of year           $ 155,682,902           $ 7,110,295     $ 162,793,197




                         See accompanying notes to the financial statements.
                                                 3
                         Utah Department of Environmental Quality
                                   State Revolving Fund
                                  Statement of Cash Flows
                          For the Fiscal Year Ended June 30, 2004

                                                Loan            Hardship
                                                Fund              Fund                Total
Cash flows from operating activities:
  Loan interest                          $       697,671                       $       697,671
  Project administration fees                     57,495                                57,495
  Hardship assessments received                1,549,814                             1,549,814
  Hardship assessments transferred
   to (from)                                  (1,443,632)         1,443,632                  0
  Other fees                                       4,505                                 4,505
  EPA grant-administration                       118,100                               118,100
  Operating expenses                            (175,595)                             (175,595)
  Disbursements to Twin Creeks                  (479,961)                             (479,961)
  Loan disbursements                         (11,438,938)                          (11,438,938)
  Loan principal repayments                   12,501,846                            12,501,846
Net cash provided by (used by)
operating activities                           1,391,305          1,443,632          2,834,937

Cash flows from capital and related
financing activities:
   Funds received from EPA                     1,492,816                             1,492,816
   Funds received from State of Utah             606,547                               606,547
Net cash provided by capital
and related financing activities               2,099,363                             2,099,363

Cash flows from investing activities:
  Investment interest                            580,441              75,621           656,062
Net cash provided by
investing activities                             580,441              75,621           656,062

Increase in cash and cash equivalents          4,071,109          1,519,253          5,590,362
Cash and cash equivalents
 beginning of year                            35,372,139          4,644,130         40,016,269

Cash and cash equivalents, end of year        39,443,248          6,163,383         45,606,631




                        See accompanying notes to the financial statements.
                                                   4
                       Utah Department of Environmental Quality
                                 State Revolving Fund
                                Statement of Cash Flows
                        For the Fiscal Year Ended June 30, 2004

                                          Loan                  Hardship
                                          Fund                    Fund              Total
Reconciliation of operating
income to net cash provided
by operating activities:
Operating income                    $     633,722           $    1,599,546   $     2,233,268
Adjustments to reconcile operating
income to net cash provided by
operating activities:
  (Increase) decrease in
   interest/fee receivable                 68,110                 (49,732)            18,378
  (Increase) decrease in project
  administration fee receivable           (10,235)                                   (10,235)
  Decrease in penalty receivable              344                                        344
  (Increase) in receivable from EPA        (4,591)                                    (4,591)
  Increase in due to other fund           121,008                                    121,008
  (Increase) in due from other fund      (479,961)               (106,182)          (586,143)
  Loan disbursements                  (11,438,938)                               (11,438,938)
  Loan principal repayments            12,501,846                                 12,501,846
Net cash provided by
operating activities                $   1,391,305                1,443,632   $     2,834,937




                      See accompanying notes to the financial statements.
                                              5
                         Utah Department of Environmental Quality

                            Water Quality State Revolving Fund

                               Notes to Financial Statements


Note 1. Organization of The Fund

The Water Quality SRF program was established pursuant to Federal action to provide assistance
to public water systems for projects that meet eligibility requirements. The SRF program allows
the State to provide low interest rate loans to finance qualified publicly owned preservation and
protection projects. The United States Environmental Protection Agency (EPA) allows up to 4%
of the Capitalization Grants for administration of the program. This funding allows for
supervision of the program by qualified technical staff that provides project management
oversight.

The Utah Water Quality Board (the Board), an eleven-member board appointed by the Governor,
develops policies and procedures for program implementation and authorizes loans under the
SRF program. The Department of Environmental Quality and the Board jointly manage the
program, while the DEQ reviews loan applications for eligibility, prioritizes eligible projects,
monitors loan repayments, and conducts project inspections. Through Utah Code, the legislature
empowers the Board with rule-making authority that meets Federal law requirements. The
Board reviews each loan applicant to determine its ability to repay the loan, its readiness to
proceed with the project, and its ability to complete the project.

The SRF receives assistance and support from the Department of Environment Quality's Office
of Support Services, the State Division of Finance, the State Attorney General's Office, and the
State Treasurer's Office. The salaries and benefits of the employees, as well as indirect costs
based on direct salary costs, are charged to the Fund based on time spent on SRF activities.
Employees charging time to the SRF are covered by the State of Utah personnel benefits plan.
The Division of Finance charges loan administration fees to the program.

The SRF is capitalized by a series of grant awards from EPA. States are required by the Clean
Water Act to provide an additional 20 percent the Federal capitalization grant in matching funds.
The SRF activities are included in the Utah Comprehensive Annual Financial Report as part of
the Proprietary Funds (Water Loan Programs). The Fund's assets, liabilities, and net assets are
not separately identified in Utah’s financial statements, which uses economic resources
measurement focus and accrual basis of accounting.


Note 2. Summary of Significant Accounting Policies

The accounting policies of the SRF conform in all material respects with generally accepted
accounting principles (GAAP) as prescribed by the Governmental Accounting Standards Board.

Basis of Accounting

The SRF program financial statements are presented as an enterprise fund. As such, the financial
statements are prepared using the economic resources measurements focus and the accrual basis
of accounting. Revenues are recorded when earned and expenses are recorded when the related


                                                6
                          Utah Department of Environmental Quality

                             Water Quality State Revolving Fund

                                Notes to Financial Statements


Note 2. Summary of Significant Accounting Policies (continued)

liability is incurred, regardless of the timing of the cash flows. All assets and liabilities
associated with the operation of the funds are included in the balance sheet. The State has
elected to follow the accounting pronouncements of the Governmental Accounting Standards
Board (GASB), as well as statements issued by the Financial Accounting Standards Board
(FASB) on or before November 30, 1989, unless the pronouncements conflict with or contradict
GASB pronouncements.

Cash and Cash Equivalents and Investments

The State Treasurer, in accordance with the Money Management Act, Section 51-7 of the Utah
Code, administers cash and investment management in the State. The Act specifies the
investments that may be made. The investments include variable rate corporate notes and
obligations of U.S. Government agencies that base their rates on standard quoted money market
indexes that have a direct correlation to the federal funds rate. Cash equivalents are generally
considered short-term highly liquid investments with maturity of three months or less from the
purchase date.

All funds deposited with the treasurer are considered to be cash or cash equivalents regardless of
the actual maturities of the underlying investments in the statement of cash flows. Shares are
valued at fair value in accordance with Governmental Accounting Standards Board Statement
No. 31, "Accounting and Financial Reporting for Certain investments and for External
Investment Pools," which requires all investments in debt and equity securities to be reported at
fair value in the balance sheet and all investment income, including changes in the fair value of
investment, to be reported in the statement of revenue and expenses.

Loans Receivable

Loans are funded by (1) Federal capitalization grants, (2) State matching funds, (3) loan
repayments, and (4) fund earnings. A project is funded through the purchase of an incremental
disbursement bond. The proceeds are drawn as needed and deposited in the escrow account.
Monies are disbursed to borrowers on a cost reimbursement basis. Interest begins accruing when
funds are deposited in the escrow account. Repayment must begin no later than one year after
completion of the project. The interest rates on the loans vary but are lower than market rates
and, in some cases, are non-interest bearing. No provision for uncollectible accounts has been
made as all loans are current, and management believes that all loans will be repaid according to
the loan terms.

Hardship Assessments

The Board has the option to charge a hardship assessment in lieu of interest on certain loans.
Hardship assessments are calculated and paid in the same manner as interest. The program
restriction for the use of hardship assessments differs from the restriction for the use of interest.
Hardship assessments are collected with loan repayments in the SRF and then transferred to and

                                                  7
                         Utah Department of Environmental Quality

                            Water Quality State Revolving Fund

                               Notes to Financial Statements


Note 2. Summary of Significant Accounting Policies (continued)

accounted for in the Hardship Fund. These funds can be used for purposes other than loans,
including grants to disadvantaged communities for project planning.

Contributed Capital

In accordance with generally accepted accounting principles, funds received from the EPA and
the State of Utah for the capitalization of the Fund are reported as non-operating revenues.
Funds received from EPA to reimburse administrative costs are reported as operating revenues.

Note 3. Cash and Cash Equivalents

All monies of the SRF are deposited with the Utah State Treasurer and are considered cash. The
Treasurer is responsible for maintaining the cash balances in accordance with the Utah Money
Management Act. Utah's Money Management Act requires the Treasurer to invest these funds in
a manner that: (1) ensures maximum safety of principal; (2) provides adequate liquidity to meet
all operating requirements; and (3) achieves the highest possible return on investment consistent
with the primary objectives of security and safety. Details of the funds invested in the Utah
Public Treasurer’s Investment Fund can be obtained from the State Treasurer.

The SRF program, including the loan fund and the hardship fund, earned $656,062 from
investments in the Utah Public Treasurer’s Investment Fund during fiscal year 2004.
Investments in local government investment pools are not categorized because they are not
evidenced by securities that exist in physical or book entry form. The fair value of cash and
investments are presented below:

                                   Loan                 Hardship
                                   Fund                  Fund                     Total
      Cash                     $    60,386             $     52,030         $     112,416
      Investments               39,382,862                 6,111,353            45,494,215
      Total                   $ 39,443,248             $ 6,163,383          $ 45,606,631




                                                8
                         Utah Department of Environmental Quality

                            Water Quality State Revolving Fund

                               Notes to Financial Statements


Note 4. Loans Receivable

Loans are made from the SRF to qualified entities for projects that meet the eligibility
requirements. Capitalization grants, State match, interest earnings, and principal repayments to
the revolving fund are sources that finance the loans. Effective interest rates and hardship fees
on loans vary between 0.0 and 5.0 percent and are generally repaid over 20 years starting 1 year
after the project has been complete. Loans mature at various intervals and recipients make
annual payments. DEQ has extended the repayment term up to 30 years for certain projects
based on EPA’s draft extended financing policy.

Loan activity during fiscal year 2004 is summarized as follows:

                    Loan Amount        Loan Balance                           Loan Balance
Loan Status          Authorized        June 30, 2003 Disbursements Repayments June 30, 2004
In disbursement     $ 27,330,000        $ 1,400,000 $ 5,800,100 $          - $ 7,200,100
Completed            157,631,396         115,405,996     5,638,838 12,501,847 108,542,987
    Total           $184,961,396       $116,805,996 $11,438,938 $12,501,847 $115,743,087

Loans mature at various intervals through June 30, 2024 and the scheduled principal repayments
on completed projects in subsequent years follow:

                           Projected          Projected           Projected       Projected Total
Fiscal Year(s)             Principal           Interest           Hardship           Payments

2005                     $ 7,694,395         $ 777,150          $1,343,427         $   9,814,972
2006                       7,869,061            729,909          1,248,065             9,847,035
2007                       8,054,993            681,075          1,149,449             9,885,517
2008                       8,127,413            630,517          1,047,310             9,805,240
2009                       8,189,701            578,208            946,435             9,714,344
2010 - 2014              35,835,252           2,083,846          3,225,240            41,144,338
2015 - 2019              21,620,463             968,239            999,234            23,587,937
2020 - 2024                7,982,709            187,945             63,126             8,233,779
2025 - 2029                3,169,000                  -                  -             3,169,000
Total                  $108,542,987          $6,636,889        $10,022,287         $ 125,202,162
Loans in disbursement      7,200,100
Total at June 30, 2004 $115,743,087




                                                9
                          Utah Department of Environmental Quality

                             Water Quality State Revolving Fund

                                Notes to Financial Statements


Note 5. Due From Other Funds

As of June 30, 2004, $479,961 had been erroneously drawn from the SRF for disbursement to
Twin Creeks, a separate State loan program loan. The entry was corrected subsequent to year
end.

Note 6. Due To Other Funds

The amount of “Due to Other Funds” is an aggregation of amounts due to DEQ to reimburse
DEQ for costs associated with administering the SRF and the amount due to the Hardship Fund
for hardship assessments collected and deposited in the loan fund. As of June 30, 2004,
$101,148 was due to DEQ to reimburse for administration costs and $206,472 was due to the
Hardship Fund for Hardship assessments received.

Note 7. Capitalization of the Fund

The EPA capitalization grants and the state match capitalize the Loan Fund. Loan program
draws and state match are recorded as non-operating revenues.

Through June 30, 2004, the SRF received grant awards totaling $122,804,294. EPA funds of
$117,496,710 had been drawn for first round projects and SRF administration. Another $7,698
was due from EPA. The State had contributed $23,761,581 in matching funds to the loan fund.
As of June 30, 2004, $5,307,584 of funds allocated to the SRF loan program has not been drawn.

Note 8. Contingencies and Subsequent Events

The SRF is exposed to various risks of loss related to torts, thefts of assets, errors or omissions,
injuries to state employees while performing SRF business, or acts of God. The SRF is included
in Utah's Risk Management Fund, which provides insurance in case of loss or claims against the
Fund.

On July 8, 2004, the 2004 Capitalization Grant was awarded. Grant funds were still available
from the 2003-year award, which postponed the need for 2004 monies. The 2004 award has not
been included in these financial statements.

On November 26, 2004, funds in the amount of $487,000, for the Twin Creeks SSD loan, were
transferred in from state funds to replenish amounts previously disbursed from the State
Revolving Fund.




                                                 10
                        Utah Department of Environmental Quality

                           Water Quality State Revolving Fund

                              Notes to Financial Statements

Note 8. Contingencies and Subsequent Events (continued)

As of June 30, 2004, the Board had approved funding authorizations for four communities
totaling $16,145,000 for loans that had not closed:
                                                      Authorized
                                                     Loan Amount
             Moroni City                             $ 2,635,000
             Stockton Town                              1,870,000
             North Fork SSD                             1,640,000
             Hooper City                               10,000,000
             Total Outstanding Commitments          $ 16,145,000




                                             11
 Independent Auditor’s Report on the 

Internal Control Structure Based on an

   Audit of the Financial Statements 

    Performed in Accordance with

    Government Auditing Standards
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                         OFFICE OF
                                                                                    INSPECTOR GENERAL




We have audited the financial statements of the Utah Department of Environmental Quality’s
(DEQ) Water Quality State Revolving Fund (SRF) program as of and for the year ended June 30,
2004, and have issued our report thereon dated February 4, 2005.

We conducted our audit in accordance with generally accepted auditing standards and
Government Auditing Standards issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the SRF is responsible for establishing and maintaining an internal control
structure. In fulfilling this responsibility, estimates and judgements by management are required
to assess the expected benefits and related costs of internal control policies and procedures. The
objectives of an internal control structure are to provide management with reasonable, but not
absolute, assurance that assets are safeguarded against loss from unauthorized use or disposition
and that transactions are executed in accordance with management’s authorization and recorded
properly to permit the preparation of financial statements in accordance with generally accepted
accounting principles. Because of inherent limitations in any internal control structure, errors or
irregularities may nevertheless occur and not be detected. Also, projection of any evaluation of
the structure to future periods is subject to the risk that procedures may become inadequate
because of changes in conditions or that the effectiveness of the design and operation of policies
and procedures may deteriorate.

In planning and performing our audit of the financial statements of the SRF for the year ended
June 30, 2004, we obtained an understanding of the internal control structure. With respect to
the internal control structure, we obtained an understanding of the design of relevant policies and
procedures and whether they have been placed in operation, and we assessed control risk in order
to determine our auditing procedures for the purpose of expressing our opinion on the financial
statements and; not to provide an opinion on the internal control structure. Accordingly, we do
not express such an opinion.

However, we noted a matter involving the internal control over financial reporting and its
operation that we consider to be a reportable condition. Reportable conditions involve matters
coming to our attention relating to significant deficiencies in the design or operation of the
internal control over financial reporting that, in our judgment, could adversely affect the SRF’s
ability to record, process, summarize, and report financial data consistent with the assertions of
management in the financial statements. The reportable condition is described in the
accompanying section of Internal Control Finding and Recommendation.



                                                 13
Our consideration of the internal control structure would not necessarily disclose all matters in
the internal control structure that might be material weaknesses under standards established by
the American Institute of Certified Public Accountants. A material weakness is a condition in
which the design or operation of one or more of the specific internal control elements does not
reduce to a relatively low level the risk that errors and irregularities – in amounts that would be
material in relation to the financial statements being audited – may occur and not be detected
within a timely period by employees in the normal course of performing their assigned
functions. We noted no matters involving the internal control structure and its operations that we
consider to be material weaknesses as defined above.

This report is intended for the managers of the SRF and the EPA. However, this report is a
matter of public record and distribution is not limited.




Office of Inspector General
February 4, 2005




                                                14
                       Internal Control Finding and Recommendation

Failure in Operation of Controls Over Recording of Loans

SRF assistance must meet the eligibility requirements of Title VI of the Clean Water Act and 40
CFR, Part 35. During fiscal year 2004, the SRF was erroneously used to purchase four warrants
totaling $479,961 from the Twin Creeks Special Service District. SRF management intended to
use a state loan program to purchase these warrants because the project did not meet the
eligibility requirements of the SRF. However, undetected accounting errors resulted in SRF
funds being used instead of state funds. The accounting errors, which were not detected during
management review and approval of the individual transactions, resulted in the SRF disbursing,
recording and reporting $479,961 in ineligible assistance. The error appears to have been a
result of a new SRF manager’s lack of familiarity with the accounting funds and codes used to
record transactions. The errors were corrected subsequent to year’s end.

Recommendation: We recommend that EPA require the DEQ to take the necessary steps to
ensure proper review and approval of transactions, including the proper use of accounting codes,
to further ensure SRF funds are used only when intended and for authorized purposes.

Utah’s Response

Utah agreed with our finding and recommendation, and added:

       We concur with the finding and recommendation. The SRF was used to purchase
       warrants from Twin Creeks Special Service District, however, management had intended
       to use a separate state loan fund to purchase these warrants and review and approve
       transactions before recording....



                                           In the future, this standard operating procedure will
       be adhered to regardless of the type of financing being provided and no funds will be
       drawn from the SRF without the use of this memorandum, which identifies accounting
       codes used in the memorandum.




                                               15
         Independent Auditor’s Report

on Compliance with Requirements Applicable to the

      Utah State Revolving Fund Program

               in Accordance with

         Government Auditing Standards
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460

                                                                                         OFFICE OF
                                                                                     INSPECTOR GENERAL




We have audited the financial statements of the Utah Department of Environmental Quality’s
Water Quality State Revolving Fund (SRF) program as of and for the year ended June 30, 2004,
and have issued our report thereon dated February 4, 2005.

We have also audited the SRF’s compliance with specific program requirements governing
allowability for specific activities, allowable types of assistance, State matching funds, period of
availability of funds and binding commitments, cash management, program income, and
subrecipient monitoring that are applicable to the SRF for the year ended June 30, 2004. The
management of the SRF is responsible for compliance with those requirements. Our
responsibility is to express an opinion on those requirements based on our audit.

We conducted our audit of compliance in accordance with generally accepted auditing standards,
Government Auditing Standards issued by the Comptroller General of the United States, and the
Environmental Protection Agency Office of Inspector General’s State Revolving Fund Audit
Guide. Those standards require that we plan and perform the audit to obtain reasonable assurance
about whether material noncompliance with the above requirements occurred. An audit includes
examining, on a test basis, evidence about the Fund’s compliance with those requirements. We
believe that our audit provides a reasonable basis for our opinion.

In our opinion, except for matters discussed in the findings and recommendations section that
follows, the SRF complied, in all material respects, with the specific program requirements that
are applicable to the Fund for the year ended June 30, 2004.

This report is intended for the information of management of the SRF and the EPA. However,
this report is a matter of public record and its distribution is not limited.




Office of Inspector General
February 4, 2005




                                                 17
                         Compliance Findings and Recommendations


Loan Terms Do Not Comply With Clean Water Act

Utah entered into three loans that exceed the 20-year repayment terms established by the Clean
Water Act. Utah awarded these loans based on EPA’s draft Extended Financing policy which
states:

       ...section 603(d)(2) [the buying or refinancing provision] does not carry with the
       limitations applicable to loans under 603(d)(1), namely that such loans are made at or
       below market rate, including interest free loans, at terms not to exceed 20 years.

The Utah SRF finances eligible projects by purchasing bonds issued by the community. EPA and
Utah have taken the position that purchasing the community’s bonds is exempt from the 20-year
loan provisions.

We do not agree that purchasing a community’s bonds under section 603(d)(2) is exempt from the
loan terms and restrictions of section 603(d)(1). According to the House and Senate Conference
Report (House 99-1004), the purpose of the buying or refinancing provision was to:

       ...encourage municipalities to proceed with construction with their own means
       of interim financing in advance of availability of a loan from the revolving
       fund, by offering municipalities the prospect of project financing at reasonably
       better financial terms at a later date.

Similarly, the Senate Debate on Conference Report, dated January 14, 1987, states:

       In the case of municipalities which proceed to begin construction with their
       own funds, refinancing is permitted from a State revolving loan fund.
       Presently, most municipalities wait until it is their turn to receive Federal
       construction grant funding before they begin constructing needed facilities.
       This refinancing feature of the Revolving Loan Program would eliminate the
       disincentive for municipalities to move ahead quickly with construction that
       now exists with the grants program.

In our opinion, Congress intended the buying or refinancing provision as a means to accelerate
construction, not to circumvent the loan terms of 603(d)(1). Further, congressional records do
not make any distinction between loans or bonds as a means of financing local projects. By
making loans with extended financing terms, amounts that could be used to finance other needed
projects were delayed.

We recommend that EPA:

       1.	        Require Utah to modify the three loans with extended financing terms to
                  comply with the Clean Water Act.

       2.	        Prohibit Utah from making loans with terms extending beyond 20 years.
                                               18
       3.	        Cease allowing States to violate the Clean Water Act based on an Office of
                  Water draft policy.

Utah’s Response

Utah did not agree with our finding and recommendations, and stated:

       “We disagree with the finding. We obtained approval from EPA prior to issuing loans in
       excess of 20 years. EPA clearly approved of DWQ making loans with terms exceeding
       20 years as evidenced by Utah receiving its capitalization grants in FY 2002, FY 2003
       and FY 2004 based upon yearly SRF Intended Use Plans that explicitly indicated that
       some of the funds were earmarked for 25 or 30-year loans. In addition, DWQ had prior
       correspondence with EPA that indicated that loans could be made with repayment terms
       in excess of 20 years, as stated in the following email dated July 18, 2002...:

                  ...SRF loans can be extended beyond 20 years, 30 years or the useful life of
                  the facility, whichever is less, provided that assistance is to economically
                  disadvantaged communities (as determined by the state) and the long term
                  revolving level of your SRF is less that 10% over 30 years due to these
                  extended financial assistance agreements. Your 2003 IUP ... shows that the
                  four loans...have or will receive extended financing and these will decrease
                  your program’s revolving level by 0.42%. From a practical standpoint, the
                  two situations you have described will not cause the 10% threshold to be
                  exceeded.

       Corrective Action Planned: Extended Financing came about through a draft
       memorandum issued [by EPA]....However, as this memorandum was never finalized, we
       will continue making federal loans that exceed a repayment term of 20 years until EPA
       resolves this issue.”

OIG’s Comments:

There is nothing in the Clean Water Act that allows the SRF to provide loans with repayment
terms exceeding 20 years. Nor is there anything in the Clean Water Act that says EPA has the
authority to allow extended repayment terms, regardless of economic need of the community.
We do not believe Congress would require loans be repaid within 20 years, but then allow longer
terms on refinancing loans. We do agree that EPA should resolve this issue by obtaining an
Office of General Counsel opinion.

Hardship Assessments Pass Through SRF

During 2003 and 2004, Utah deposited $3,334,560 of hardship assessments into the SRF and
subsequently transferred $3,128,088 of hardship assessment fees out of the SRF. These actions
violated the Clean Water Act by: (1) depositing non-SRF funds into the fund, and (2) then
transferring the non-SRF funds (hardship assessments) to the Hardship Fund, which is not one of
the authorized uses of SRF assets.

Title VI of the Clean Water Act specifies funds to be deposited and held in the SRF. Those
                                              19
funds include the capitalization grant payments, state match, principal and interest on all loans,
net proceeds of bond issues secured by the SRF, and SRF investment earnings. The Operating
Agreement between EPA and Utah defines how Utah would establish and operate its SRF
program. The Operating Agreement was amended on March 28, 1994 to state:

       The recipient has established a Hardship Grant Fund outside of the SRF which
       will be used to provide grants to communities for projects that would not be
       economically feasible unless grant assistance is provided. Recipients of SRF
       loans will be charged a hardship grant assessment, as determined by the
       Water Quality Board, to be placed directly into the Hardship Grant Fund.

The SRF can be established within a multiple-purpose State financing program, however, the
SRF must be a separate account or series of accounts dedicated solely to providing loans and
other forms of financial assistance, but not grants. Utah’s loan accounting system only allows
interest and fees on loans to be recorded in the fund where the loan is recorded, in this case, the
SRF. To overcome this limitation, Utah established a code to identify hardship loans, created a
separate account to record the hardship assessments, and maintained a subsidiary ledger to
ensure that amounts received were transferred to the hardship fund. While the hardship
assessments were identified, not all funds collected had been transferred by year’s end.

Utah is in violation of the Clean Water Act because it deposits hardship assessments in the SRF,
and then uses the funds for unauthorized purposes. To the extent the funds were transferred out
of the SRF, Utah, in effect, corrected its violation of the Operating Agreement. However, as of
June 30, 2004, assessments amounting to $206,472 had not yet been transferred out.

We recommend that EPA require Utah to:

       1.	         Transfer the remaining $206,472 in hardship assessments in the SRF at June
                   30, 2004, and any subsequent receipts of hardship assessments deposited into
                   the SRF, to the Hardship Fund.

       2.	         Make appropriate adjustments to accounts and procedures to deposit and
                   account for the hardship assessment fees outside the SRF in accordance with
                   the Clean Water Act and the current Operating Agreement.

Utah’s Response

Utah agreed with our finding and recommendation, and stated:

       “We have transferred all appropriate hardship assessments out of the SRF account that
       were recorded at June 30, 2004....We have created a new account to record the hardship
       assessments separate from other SRF activity. We have also reviewed our year-end
       procedures to ensure that all appropriate year-end adjustments are made.”




                                                 20
Monitoring of Borrowers’ Single Audits Reports

The Department of Environmental Quality did not have procedures in place to ensure that
borrowers met the requirements of the Single Audit Act in accordance with 40 CFR 35.3135(i).
States monitor borrowers compliance with the Single Audit Act by obtaining and reviewing
borrowers’ Single Audit reports. The reports are then used to: (1) determine whether the loan
recipients have spent Federal assistance funds in accordance with applicable laws and
regulations, (2) ensure that appropriate corrective action is taken, and (3) determine whether
adjustments to state loan records are necessary.

SRF staff were under the impression that the State Auditor’s Office was performing that
function. As a result, SRF management did not have any assurance that the communities
complied with generally accepted accounting principles, or that SRF funds were audited.

Recommendation: We recommend that EPA require Utah to implement a Single Audit review
and corrective action policy consistent with Federal regulations.

Utah’s Response

Utah agreed with our finding and recommendation, and added:

       “We have been active in monitoring the payments, compliance, and activities of
       subrecipients....We have also reminded subrecipents of their responsibility to obtain a
       Single Audit if required and submit a copy to the department for review.”


Inappropriate Recording of Assistance in SRF

Any assistance provided by the SRF must meet the eligibility requirements of Title VI of the
Clean Water Act and 40 CFR, Part 35. During fiscal year 2004, the SRF was erroneously used
to purchase four warrants totaling $479,961 from Twin Creeks Special Service District. SRF
management had intended to use a separate State loan program to purchase these warrants since
the project did not meet the eligibility requirements of the SRF. Upon purchase of the warrants,
however, funds from the SRF were used instead of state funds. Although each of these
transactions were reviewed and approved before recording, an error in the fund code went
undetected, resulting in the SRF disbursing, recording and reporting $479,961 in ineligible
assistance. This error appeared to be the result, in part, of inexperienced personnel, due to recent
turnover in program management and staff. This error was corrected subsequent to year’s end.

Recommendation: We recommend EPA require the Department of Environmental Quality take
appropriate steps to ensure that established review and approval procedures are understood and
followed so that assistance is provided, recorded and reported by the appropriate program.
Additional procedures should be added to ensure that all loans and other assistance recorded in
the SRF are properly supported by SRF assistance documentation.




                                                 21
Utah’s Response

Utah agreed with our finding and recommendation. See response to Independent Auditor’s
Report on the Internal Control Structure Based on an Audit of the Financial Statements
Performed in Accordance with Government Auditing Standards.




                                            22
                                  Report Distribution


EPA Region 8

      Regional Administrator

      Director, Water Division

      State Revolving Fund Coordinator

      Audit Followup Coordinator


EPA Headquarters

      Director, Grants Administration
      Director, Financial Management Division
      Director, Office of Grants and Debarment
      Agency Followup Coordinator
      State Revolving Fund Audit Manager
      State Revolving Fund Branch, Office of Wastewater Management

State of Utah

      Division of Water Quality, Utah Department of Environmental Quality




                                           23
